28

DECLARATION OF SERVICE:
I, Bishop Ruben DeWayne do hereby, declare that I have served a true and correct
copy of:
PETITION FOR WRIT OF CERTIORARI
BY APPEAL
Under Consideration for Review on Writ of Certiorari
Pursuant to the Supreme Court of the United States Rule 10.
upon the Defendants/A^ejlees by First Class Mail of the U.S. Postal Service (prepaid) this ^2^day of Attgustr2021 at the address listed below.

stpi.
Leitta Brooks, Joinder Plaintiff
32 Crooked River Road,
Wareham MA 02571
THE UNITED STATES
c/o Patricia K. McBride
555 Fourth Street, NW
Washington, DC 20530

MERS, INC., and
J.P. MORGAN MORTGAGE CQUISITION
c/o SEYFARTH SHAW LLP
975 F. Street, NW
Washington, DC 20004-1454

Respectfully submittecL for Dalm
The Bishop Ruben DeWayne
c/o 5105 N. Main Street Bid. A.
Columbia, South Carolina 29203
(803) 200-5105
f&

Whereas, this matter brought before this Highest Court of the Lands on appeal
showing the lower courts departed so far from the accepted and usual course of
judicial proceedings as published, which warrants a call for an exercise of this Court's
supervisory power and judicial oversight.
To:

SUPREME COURT OF THE UNITED STATES
Clerk of Court
1 First Street, NE / Washington, D C 20543-0001
28

